No. 20-5904
IN THE

Supreme Court of the United States
TARAHRICK TERRY,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Gerard J. Cedrone, counsel of
record and a member of the Bar of this Court, certify that the Brief of Retired
Federal Judges, Former Federal Prosecutors, and the National Association of
Criminal Defense Lawyers as Amici Curiae in Support of Petitioner contains 3,605
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

February 19, 2021

/s/ Gerard J. Cedrone
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
gcedrone@goodwinlaw.com
(617) 570-1849
Counsel of Record for Amici Curiae

